No. 19-331
IN THE

Supreme Court of the United States
————
SEQUOIA CAPITAL OPERATIONS, LLC; TCV V, L.P.,
v.

Petitioners,

JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS
SIMILARLY SITUATED; ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,
Respondents.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
————
BRIEF IN OPPOSITION
————
KATHLEEN M. DONOVAN-MAHER
STEVEN J. BUTTACAVOLI
BERMAN TABACCO
One Liberty Square
Boston, MA 02109
(617) 542-8300
kdonovanmaher@
bermantabacco.com
sbuttacavoli@
bermantabacco.com

MATTHEW B. BYRNE
Counsel of Record
GRAVEL & SHEA PC
76 St. Paul Street
7th Floor
P.O. Box 369
Burlington, VT 05402
(802) 658-0220
mbyrne@gravelshea.com

Counsel for Respondents
November 26, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iii

INTRODUCTION ................................................

1

STATEMENT OF THE CASE ............................

3

A. Factual Background .................................

3

B. The Fraudulent Enterprise ......................

5

C. The Purported Arbitration Agreement ....

7

D. Rees And Think Finance Continued To
Exert Control Over The Tribe ..................

12

E. Discovery in the Think Finance
Bankruptcy Reveals Think Finance’s
Control over the Tribe and Sequoia’s and
TCV’s Participation ..................................

14

F. Rule 15 Statement ....................................

17

ARGUMENT ........................................................

20

I. PETITIONER’S FACTBOUND CLAIM
THAT THE SECOND CIRCUIT ERRED
IN APPLYING THIS COURT’S PRECEDENT DOES NOT MERIT REVIEW ......

20

II. THERE IS NO CIRCUIT SPLIT ..............

24

III. THE PETITION’S CHALLENGE TO
THE ADEQUACY OF THE SECOND
CIRCUIT’S EXPLANATION OF ITS
HOLDING THAT THE DELEGATION
CLAUSE IS UNENFORCEABLE DOES
NOT INVOLVE AN IMPORTANT
ISSUE ........................................................

27

(i)

ii
TABLE OF CONTENTS—Continued
Page
IV. THIS CASE IS A POOR VEHICLE FOR
CONSIDERING THE ISSUE PETITIONERS SEEK TO PRESENT ..............

27

A. There Are Several Alternative Bases
for Resolving the Arbitration Issues ...

27

B. The Case is in a Procedurally
Awkward Posture ................................

29

PETITIONERS’ POSITION IN THE
COURT BELOW IS INCONSISTENT
WITH THEIR ARGUMENT IN THIS
COURT ......................................................

30

V.

APPENDIX
APPENDIX A: VIDEOTAPED EXAMINATION UNDER OATH OF BILLI ANNE
RAINING BIRD, U.S. Bankruptcy Court,
Northern District of Texas (October 5, 2018) ...

1a

APPENDIX B: STATEMENT OF UNDISPUTED FACTS IN SUPPORT OF THE
PLAINTIFF’S MOTION FOR PARTIAL
SUMMARY
JUDGMENT
AGAINST
DEFENDANT’S KENNETH REES AND
NATIONAL CREDIT ADJUSTERSM LLC,
U.S. District Court, Eastern District of
Pennsylvania (August 14, 2019) ....................

12a

APPENDIX C: Draft
NAFSA
MODEL
TRIBAL LENDING CODE (January 20,
2014) ...............................................................

24a

APPENDIX D: Draft
NAFSA
MODEL
TRIBAL LENDING CODE (January 19,
2014) ...............................................................

33a

iii
TABLE OF AUTHORITIES
CASES

Page(s)

Commonwealth of Pa v. Think Finance, Inc.,
No. 2:14-cv-7139-JCJ, No. 293-3
(E.D. Pa. Aug. 14, 2019) ...........................

15

Forman v. United States,
720 F.2d 263 (2d Cir. 1983) ......................

25

Gingras v. Rosette,
922 F.3d 112 (2d Cir. 2019) ......................

24

Gingras v. Rosette,
No. 15-cv-101 (D. Vt. Dec. 9, 2015) ..........

30

Gingras v. Rosette,
No. 15-cv-101, 2016 WL 2932163
(D. Vt. May 18, 2016) ................................

21

Gingras v. Victory Park, LLC,
No. 5:17-cv-233
(D. Vt. Oct. 25, 2019) ................................

31

Hayes v. Delbert Serv. Corp.,
811 F.3d 666 (4th Cir. 2016) ............... 23, 25, 26
In re Think Finance,
No. 17-33964, Dkt. 1510
(N.D. Tex. Sept. 20, 2019)......................... 14, 17
Jones v. Waffle House, Inc.,
866 F.3d 1257 (11th Cir. 2017) .................

25

MacDonald v. CashCall, Inc.,
883 F.3d 220 (3rd Cir. 2018)..................... 24, 25
Minnieland Private Day Sch., Inc. v.
Applied Underwriters Captive
Risk Asssur. Co.,
867 F.3d 449 (4th Cir. 2017) ............... 24, 25, 25

iv
TABLE OF AUTHORITIES—Continued
Page(s)
New Prime Inc. v. Oliveira,
139 S. Ct. 532 (2019) .................................

25

Otoe-Missouria Tribe of Indians v.
N.Y. State Dep’t Fin. Servs.,
974 F. Supp. 2d 353 (S.D.N.Y. 2013)
aff’d 769 F.3d 105 (2d Cir. 2014) .............. 16, 17
Parm v. Nat’l Bank of Calif.,
835 F.3d 1331 (11th Cir. 2016) ................. 23 ,25
Parnell v. CashCall, Inc.,
664 Fed. Appx. 841
(11th Cir. Nov. 21, 2016) ..........................

23

Rent-A-Center, Inc. v. Jackson,
561 U.S. 63, 130 S. Ct. 2772
(2010) ............................................. 21, 23, 24, 25
Taylor v. McKeithen,
407 U.S. 191 (1972) ...................................

26

STATUTES
9 U.S.C. § 2. ..................................................

21

9 U.S.C. § 4. ..................................................

21

Chippewa Cree Code § 10-3-601 .................. 9, 22
Chippewa Cree Code § 10-8-101 .................. 9, 22
RULES
Sup. Ct. R. 10 ................................................ 20, 27
Sup. Ct. R. 10(a) ...........................................

27

Sup. Ct. R. 15 ................................................

17

v
TABLE OF AUTHORITIES—Continued
Page(s)
Fed. R. App. P. 36 .........................................

25

2d Cir. Local R. 32.1.1 ..................................

26

INTRODUCTION
Two Silicon Valley venture capital firms, Sequoia
Capital Operations, LLC (“Sequoia”) and Technology
Crossover Ventures (“TCV”), participated in an illegal
loan sharking scheme that specifically targeted unsuspecting low-income borrowers. Although their usurious
behavior violated RICO’s unlawful debt provisions,
Sequoia and TCV ask this Court to ignore the inherent
unfairness of their actions and rely on equity to
enforce arbitration agreements to which they were
not even a party. Both the Second Circuit Court of
Appeals and the District of Vermont refused to enforce
these unconscionable agreements. This Court should
refrain from disturbing the well-reasoned opinions of
these courts and should deny Sequoia’s and TCV’s
petition.
First, the petition’s central claim that the decision
below conflicts with this Court’s decisions is erroneous. Both the district court and the court of appeals
recognized the governing legal principles established
by this Court’s opinions. In applying that settled law,
they correctly decided and adequately explained their
decisions. The Second Circuit did not simply ignore
that the arbitration agreements had delegation clauses.
Instead, the court held that Ms. Gingras and Ms.
Given, Respondents and Plaintiffs below, made a
“specific attack on the delegation provision” and ruled
that their challenge was “convincing.” Pet. App. 21a22a. In challenging the delegation clause, Plaintiffs
alleged and presented evidence that Think Finance,
the company operating the payday loan enterprise,
dictated the content of Chippewa Cree law and
ensured that it would be favorable to the participants
in the enterprise and their predatory loan practices.
The law that Think Finance wrote and incorporated in

2
its arbitration agreements rendered the delegation
clause as well as the arbitration agreements as a
whole unconscionable because it preordained the
outcome of any decision by an arbitrator on both
arbitrability and the merits.
In issuing its opinion, the Second Circuit was not
obligated to discuss any of this evidence. In fact, the
court of appeals could have simply entered judgment
without saying anything. While the Second Circuit
did not discuss all of the bases which Plaintiffs offered
for invalidating the delegation clause, the court
discussed some of them. It held that because the
arbitration agreements, including their delegation
clauses, were designed to avoid state and federal
law, they were unenforceable. It also held that the
agreements were substantively unconscionable under
Vermont law because they provided an illusory arbitration forum. In arriving at this holding, the court
cited the uncontested evidence provided by Plaintiffs.
Second, review by this Court is unwarranted
because the courts of appeals have uniformly applied
the Court’s decisions with respect to delegation clauses
in arbitration agreements. There is no circuit split.
Third, the amount of explanation the court of
appeals must provide in ruling on a delegation clause
does not present an important issue for this Court.
Finally, there are alternative grounds to affirm the
Second Circuit’s opinion that are not raised by the
question presented. For instance, the district court
held that the plain language of the arbitration agreements did not give the arbitrator authority to rule on
class wide cases. Accordingly, this Court should deny
certiorari, stop Sequoia’s and TCV’s attempt to delay,
and allow Ms. Given and Ms. Gingras to proceed to trial.

3
STATEMENT OF THE CASE
A. Factual Background.
In their First Amended Complaint (“Complaint”),
Plaintiffs Jessica Gingras and Angela Given explain
how they fell victim to a sophisticated loan sharking
operation that was specifically designed to ensnare
unsuspecting victims. Pet. App. 118a, ¶21. Ms.
Gingras and Ms. Given visited a bright and cheerful
website that promised to help them secure a loan. Id.
This website informed visitors that with an easy
online application they could obtain an answer within
a matter of seconds:

Id.
The website proclaimed that the loan was a better
option than a payday loan:

Id. 119a, ¶22.

4
However, the cheerful cartoon characters did not
tell the whole story. Id. 119a, ¶23. The reality of the
Defendants’ operation was far different from what
these shiny, innocent-looking characters suggested.1
Id. Plaintiffs allege that the loan sharking enterprise
called “Plain Green” was created when Kenneth Rees,
the mastermind of this illegal scheme, had his former
business, ThinkCash, Inc. (“ThinkCash”), shut down
by federal regulators. Id. Rees was undeterred by this
setback and sought a new way to prey on unsuspecting
borrowers. Id. Rees believed that tribal immunity
was the answer. Id. So, Rees and his rebranded
company, Think Finance, approached the Chippewa
Cree Tribe of the Rocky Boy’s Reservation (“Chippewa
Cree” or the “Tribe”) with a deal. Id. Rees and Think
Finance would provide everything needed to run a
successful payday loan enterprise if the Tribe would
let them use the concept of tribal immunity to stymie
state and federal regulators. Id. In return, the Tribe
would receive 4.5% of the enterprise’s revenues. Id.;
162a-169a at 164a.
Two Silicon Valley venture capital firms, Sequoia
and TCV, became embroiled in this unlawful enterprise. Pet. App. 147a, ¶154. Plaintiffs allege that
both Sequoia and TCV provided money to fuel the
illegal Plain Green loan sharking operation. Id. After
Plaintiffs filed their Complaint, they uncovered facts
1

“Defendants” refers to Think Finance, Inc. (“Think Finance”),
TC Loan Services, LLC, TC Decision Sciences, LLC, Tailwind
Marketing, LLC, Sequoia Capital Operations, LLC, Technology
Crossover Ventures, Kenneth E. Rees, Joel Rosette, Ted
Whitford, and Tim McInerney. Rosette, Whitford, and McInerney
are collectively referred to as the “Tribal Defendants.” Only
Sequoia and TCV seek review of the court of appeals’ decision in
this Court. The other Defendants did not seek review of the court
of appeals’ decision.

5
indicating that these venture capital firms did more
than just provide financial backing for the Plain Green
enterprise; they each had representatives that served
on Think Finance’s Board of Directors. CA 2 J.App.
277-78, ¶¶ 1-4.
B. The Fraudulent Enterprise.
Plaintiffs allege that prior to launching Plain Green
in 2011, Rees created ThinkCash, which was a payday
lender that operated over the internet. Pet. App. 122a,
¶37. To avoid state and federal limits on interest
rates, ThinkCash used a model known in the money
lending industry as “rent-a-bank.” Id. ¶ 38. Under
this scheme, ThinkCash marketed, funded, and collected loans, and performed other functions for
borrowers throughout the country. Id. Although
ThinkCash was the actual lender, the nominal lender
was a now-dissolved bank based in Delaware called
First Bank of Delaware (“FBD”). The participants in
this “rent-a-bank” scheme attempted to rely on some
ill-defined federal bank preemption to evade state
laws that prohibited extortionate interest rates.
Pet. App. 123a, ¶¶39-41. In 2008, federal regulators
initiated an enforcement action to thwart this
practice. Id. ¶40. This enforcement action culminated
in a consent order that required FBD to end its
relationship with ThinkCash. Id. ¶41. After FBD’s
shareholders voted to dissolve the bank in 2012, the
United States Department of Justice announced that
FBD would pay a $15 million civil penalty for its
participation in “rent-a-bank” schemes. Pet. App.
123a, ¶41.
After federal regulators intervened, Kenneth Rees
rebranded his company as Think Finance and moved
on to a scheme that the money lending industry called
“rent-a-tribe.” Pet. App. 121a, 123a, ¶¶38, 42-44. The

6
“rent-a-tribe” scheme attempted to take advantage of
tribal immunity in the same way that ThinkCash
attempted to take advantage of federal banking-law
preemption. Pet. App. 123a, ¶¶42-44.
In March 2011, Rees and Think Finance approached
the Chippewa Cree about forming a tribal entity to
conduct an illegal scheme that would operate “on
a nationwide basis through the internet.” Pet. App.
130a, ¶78, 162a. As part of the negotiations, Rees and
Think Finance prepared a term sheet that reflected
the essentials of the transaction (the “Term Sheet”).
Pet. App. 130a, ¶78, 162a-169a. When they created
the Term Sheet and started the Plain Green enterprise, Rees and Think Finance were attempting to
evade liability for violating various laws. Pet. App.
122a, ¶36; 131a, ¶82. According to the sworn affidavit
of Neal Rosette, Plain Green’s former CEO, which was
uncovered after Plaintiffs filed their Complaint, “[t]he
primary reason that Think Finance, Inc. was so
interested in partnering with an Indian Tribe was to
circumvent the various State laws governing interest
rates on payday and other sub-prime loans.” CA2 J.
App. 87, ¶7.
As part of their negotiations with the Tribal Defendants, Rees and Think Finance dictated the content of
Chippewa Cree law and ensured that the law would be
favorable to them and their predatory loan practices.
Pet. App. 130a, ¶79 quoting 162a. The Term Sheet
stated that: “The Tribe will adopt a finance code that
is acceptable to all parties and provide for licensing of
an arm of the tribe to engage in consumer lending.”
Pet. App. 162a. The Term Sheet also required the
Tribe to use “best efforts” to “[r]evise the Tribal Credit
Transaction Code to provide for a broader array of
lending products.” Pet. App. 165a.

7
To further Defendants’ illegal scheme, the Tribal
Defendants restricted access to Chippewa Cree law by
making it unavailable to the public through the
internet and other means. Pet. App. 142a, ¶128.
Organizations – like law school libraries – will not
provide a copy of the Chippewa Cree law by remote
access because the Tribal Defendants have not
granted them the right to do so. Id; see also CA2 J.
App. 79-81, ¶¶12-19.
C. The Purported Arbitration Agreement.
As part of the loan process, Defendants required all
borrowers to sign a loan agreement that included an
arbitration provision that would govern any disputes
(the “Purported Arbitration Agreement” or “Agreement”). Pet. App. 139a, ¶118. Plaintiffs allege that
this Agreement is unenforceable. Dist. Ct. Dkt 85 at
41-71. It contained a number of material misstatements, including that (1) Plain Green was the lender,
(2) Chippewa Cree law governed the transaction, and
(3) state law did not apply. Pet. App. 141a-142a, ¶124126. Plaintiffs also allege that the Agreement failed
to reveal that Plain Green was merely a front company
created to allow Rees and Think Finance to hide
behind the Tribe’s immunity. Id. It did not disclose
that Rees and Think Finance created the Chippewa
Cree law that would permit Plain Green to make loans
at rates that are illegal under state and federal law.
Id.
Plaintiffs also allege that when Rees and Think
Finance created the Plain Green enterprise, they
controlled the drafting and implementation of the
Purported Arbitration Agreement through their close
association with Pepper Hamilton, the attorneys who
drafted the Plain Green loan documents including
the Purported Arbitration Agreement. Pet. App. 137a,

8
¶110. The district court agreed with Plaintiffs that the
Purported Arbitration Agreement was unconscionable
and unenforceable. Pet. App. 56a-68a.
The Agreement has a delegation clause that attempts
to insulate Defendants’ behavior from state or federal
court review by shifting all disputes to either an
arbitrator or a tribal court. Pet. App. 143a, ¶131. The
Agreement also requires the application of Chippewa
Cree law, which is the tribal law that Rees and Think
Finance purchased through the Term Sheet:
The arbitrator has the ability to award all
remedies available under Tribal Law, whether
at law or in equity, to the prevailing party,
except that the parties agree that the arbitrator has no authority to conduct class-wide
proceedings and will be restricted to resolving
the individual Disputes between the parties.
The validity, effect and enforceability of this
waiver of class action lawsuit and class-wide
arbitration, if challenged, are to be determined solely by a court of competent jurisdiction located within the Chippewa Cree Tribe,
and not by the AAA, JAMS or an arbitrator.
If the court refuses to enforce the class-wide
arbitration waiver, or if the arbitrator fails or
refuses to enforce the waiver of class-wide
arbitration, the parties agree that the Dispute will proceed in Tribal court and will be
decided by a Tribal court judge, sitting without a jury, under applicable court rules and
procedures and may be enforced by such court
through any measures or reciprocity provisions available. As an integral component
of accepting this Agreement, you irrevocably

9
consent to the jurisdiction of the Tribal courts
for purposes of this Agreement.
CA2 J. App. 265.
The Code itself is riddled with provisions that only
a loan shark could write. Not surprisingly, there is no
interest rate limit. The Code also contains a “reverse
preemption” clause. Contrary to well settled United
States Supreme Court precedent, Section 10-8-101 of
the Chippewa Cree Code declares that a “. . . Loan
Agreement between any Creditor authorized by the
Tribe to lend money and a Consumer shall be governed
by this Code and the laws of the Tribe notwithstanding
any federal or Tribal law to the contrary.” CA2 J. App.
342. The “reverse preemption” clause is particularly
pernicious because, pursuant to Section 10-3-601
of the Tribal Code, the only remedy allowed by the
Chippewa Cree Code with respect to the arbitration
agreement is to opt out within one business day. CA2
J. App. A323. Beyond, the one day opt-out, the code
bars all other remedies. Id.
In a separate provision, the Purported Arbitration
Agreement seeks to avoid federal court review by
requiring that the tribal court confirm any arbitration
award. The Agreement also requires any judicial
decision maker to apply the law that Rees and Think
Finance purchased through the rent-a-tribe scheme:
APPLICABLE LAW AND JUDICIAL REVIEW OF ARBITRATOR’S AWARD: THIS
AGREEMENT TO ARBITRATE IS MADE
PURSUANT TO A TRANSACTION INVOLVING THE INDIAN COMMERCE
CLAUSE OF THE CONSTITUTION OF
THE UNITED STATES OF AMERICA, AND
SHALL BE GOVERNED BY THE LAW OF
THE CHIPPEWA CREE TRIBE. The arbi-

10
trator shall apply Tribal Law and the terms
of this Agreement, including this Agreement
to Arbitrate and the waivers included herein.
The arbitrator may decide, with or without a
hearing, any motion that is substantially
similar to a motion to dismiss for failure to
state a claim or a motion for summary
judgment. The arbitrator shall make written
findings and the arbitrator’s award may be
filed with a Tribal court. The arbitration
award shall be supported by substantial
evidence and must be consistent with this
Agreement and Tribal Law, and if it is not, it
may be set aside by a Tribal court upon
judicial review.
CA2 J. App. 265
In several other places in the Agreement, Rees and
Think Finance, with the cooperation of the Tribal
Defendants, attempted to ensure that federal courts
would never review any dispute and that the law Rees
and Think Finance purchased would be used in any
arbitration. For example, if a party to the Agreement
attempts to opt out of arbitration, the Agreement
states that the party will be opting in to an adjudication conducted by a Chippewa Cree tribal court using
the Chippewa Cree law that was purchased by
Defendants:
IN THE EVENT YOU OPT OUT OF THE
WAIVER OF JURY TRIAL AND ARBITRATION AGREEMENT, ANY DISPUTES
SHALL NONETHELESS BE GOVERNED
UNDER THE LAWS OF THE CHIPPEWA
CREE TRIBE AND MUST BE BROUGHT
WITHIN THE COURT SYSTEM THEREOF.
CA2 J. App. 263.

11
The venue clause of the Purported Arbitration
Agreement also requires borrowers pursuing arbitration to confirm the enterprise’s claim for tribal
immunity and to waive any right to use any law other
than the purchased Chippewa Cree law:
LOCATION OF ARBITRATION: Any arbitration under this Agreement may be conducted either on Tribal land or within thirty
(30) miles of your residence, at your choice,
provided that this accommodation for you
shall not be construed in any way (a) as a
relinquishment or waiver of the sovereign
status or immunity of the Tribe, or (b) to allow
for the application of any law other than
Tribal Law.
CA2 J. App. 264.
In other places, the Agreement expressly disclaims
the applicability of both federal and state law: “The
Lender may choose to voluntarily use certain federal
laws as guidelines for the provision of services. Such
voluntary use does not represent acquiescence of the
Chippewa Cree Tribe to any federal law unless found
expressly applicable to the operations of the Chippewa
Cree Tribe offering such services.” CA2 J. App. 263.
It also states that: “Neither this Agreement nor the
Lender is subject to the laws of any state of the United
States.” CA2 J. App. 263. The Agreement states that
“[t]his Consumer Installment Loan Agreement (this
[‘]Agreement[’]) is subject solely to the exclusive laws
and jurisdiction of the Chippewa Cree Tribe of the
Rocky Boy Indian Reservation” and that “no other
state or federal law or regulation shall apply to this
Agreement, its enforcement or interpretation.” CA2 J.
App. 258.

12
The Purported Arbitration Agreement also prevents
any arbitration organization designated to conduct
any arbitration under the Agreement from applying
rules that would interfere with the result dictated by
the law that Rees and Think Finance purchased. The
Agreement states: “The policies and procedures of the
selected arbitration firm applicable to consumer
transactions will apply provided such policies and
procedures do not contradict this Agreement to
Arbitrate or Tribal Law. To the extent the arbitration
firm’s rules or procedures are different than the terms
of this Agreement to Arbitrate, the terms of this
Agreement to Arbitrate will apply.” CA2 J. App. 264.
D. Rees And Think Finance Continued To
Exert Control Over The Tribe.
After filing the Complaint, Plaintiffs uncovered
more facts that suggest that Rees and Think Finance
directed the internal affairs of the Tribe. CA2 J. App.
78. According to a sworn affidavit of former Plain
Green CEO Neal Rosette, Think Finance directed the
ouster of Ken Blatt-St. Marks (“St. Marks”), Chairman
of the Tribe’s Business Committee, after St. Marks
questioned the division of Plain Green’s profits. CA2
J. App. 88, ¶¶9-10. Mr. Rosette stated in his affidavit:
After Chairman St. Marks’ remarks, Think
Finance Inc. met with tribal council members
and told them that Chairman St. Marks
needed to be removed from office or Think
Finance Inc. would pull out of the business
arrangement. Think Finance, Inc. specifically instructed the tribal council members
to impeach Chairman St. Marks. I have
personal knowledge of this because it was
revealed to me by John “Chance” Houle prior
to Chairman St. Marks being impeached the

13
first time. After Mr. Houle revealed that
information to me, Chairman St. Marks was
impeached.
CA2 J. App. 88, ¶10; see also CA2 J. App. 279, ¶8.
In March 2013, the Business Committee fired St.
Marks, but the United States Department of the
Interior found that the Tribe had to reinstate him
because he was protected by federal whistleblower
statutes. CA2 J. App. 57, ¶143. According to an
anonymous witness interviewed by the Department of
the Interior, “the Business Committee removed BlattSt. Marks as Chairman to continue to hide their
wrongdoings.” CA2 Supp. App. 16; see also CA2 J.
App. 279, ¶8. The witness also reported that “every
single one of the Business Committee members have
taken something, i.e. money, equipment, vehicles.” Id.
Plaintiffs allege numerous other facts indicating
that the leadership of the Tribe is in substantial
turmoil and flux. Pet. App. 144a-146a. There is a
large investigation into bribery at the Tribe, and
several former officials have been convicted of, or pled
guilty to, embezzlement and bribery. Pet. App. 144a,
¶132-35. For example, John Chance Houle (“Houle”),
the former Chairman of Plain Green, pled guilty to
several federal felonies, including theft from a tribal
organization, embezzlement, and income tax evasion.
Pet. App. 144a, ¶135. Houle signed the Term Sheet on
behalf of the Tribe and Plain Green. Pet. App. 162a.
Neal Rosette, Plain Green’s former CEO, and Billi
Anne Raining Bird, Plain Green’s former CFO and
CEO, were involved in a separate fraudulent kickback
scheme. Pet. App. 145a, ¶138-139. After the Complaint was filed, they both pled guilty to federal
felonies related to the kickback scheme. See CA2 J.
App. 278, ¶6.

14
Plaintiffs allege that the corruption and instability
extended to the Chippewa Cree Tribal Judiciary.
Pet. App. 145a. In his dispute with the Business
Committee, St. Marks fired the Tribe’s Chief Judge
and several other trial judges. Pet. App. 145a, ¶140.
An interview of a former Chippewa Cree tribal judge
conducted by the Federal Bureau of Investigation and
the Office of the Inspector General for the United
States Department of the Interior demonstrates that
the Chippewa Cree judiciary is neither independent
nor functional. CA2 J. App. 279. The former judge
stated that when he was deciding whether to issue a
TRO related to the removal of St. Marks, “he feared
retaliation from both sides at the time – the Business
Committee and St. Marks – because both could do
harm to him job-wise.” CA2 J. App. 279, ¶9; CA2 J.
App. 281. The judge said that “the removal of St.
Marks as Chairman should never have been effective
because the Business Committee violated the CCT
[Chippewa Cree Tribe] Constitution.” CA2 J. App.
281. However, this judge entered the order removing
St. Marks even though he thought it was improper and
unconstitutional because he feared retaliation. Id.
E. Discovery in the Think Finance Bankruptcy Reveals Think Finance’s Control
over the Tribe and Sequoia’s and TCV’s
Participation.
In October 2017, Think Finance filed for federal
bankruptcy protection in the Northern District of
Texas. In re Think Finance, No. 17-33964 (N.D. Tex.).
During the bankruptcy proceeding, Plaintiffs uncovered more damaging evidence against the Defendants.
For example, Billi Anne Raining Bird, a former CEO
and CFO of Plain Green, testified that Plain Green
was a “rent-a-tribe scheme” because the Tribe had no

15
role in the “underwriting, origination, servicing or
marketing, or collection of loans.” Resp. App. 11a. She
also testified that Think Finance actually drafted the
Chippewa Cree Transaction Code. According to Ms.
Raining Bird, Think Finance told the tribe, “[T]his is
what we need in place and I guess if we wanted the
business then we adopt the code that they – that was
placed in front of us – or them, the Tribe.” Resp. App.
7a. The Arbitration Agreement required any decision
maker to apply this Chippewa Cree Transaction Code
in ruling on the validity of the delegation provision.
The facts uncovered during the Think Finance bankruptcy proceeding also revealed that Think Finance
founded the Native American Financial Services Association (“NAFSA”). See, e.g., Commonwealth of Pa v.
Think Finance, Inc., No. 2:14-cv-7139-JCJ, No. 293-3
(August 14, 2019 E.D. Pa.) App. 2747.2 Mr. Rees
repeatedly reported this fact to the Think Finance
Board of Directors, which included representatives
from Sequoia and TCV. Think Finance and other
payday lenders paid the vast majority of the costs
associated with the NAFSA. Resp. App. 17a ¶ 213.
Think Finance’s “Chief Integrity Officer,” Martin
Wong, also drafted the NAFSA model code and gutted
several arbitration provisions that would have provided protection for consumers. See Resp. App. 25a
(“Martin has been an invaluable source of assistance
on this journey.”) & 34a. This NAFSA model code was
the basis for the Chippewa Cree Transaction Code that
Think Finance forced the Tribe to adopt. The edits to
2

Relying on the same evidence, the Commonwealth of Pennsylvania has complied a statement of facts detailing the
essentials of this vast loan sharking scam. Commonwealth of
Pennsylvania v. Think Finance, Inc., No. 2:14-cv-7139-JCJ, No.
293-3 (August 14, 2019) (E.D.Pa); see also id., No. 296 (November
18, 2019) (finding dispute of material fact existed).

16
the unconscionability section continued until there
was nothing left to it in the relevant version of the
Chippewa Cree Transaction Code.
Think Finance also hired and paid lawyer David
Bernick to pursue litigation on behalf of purported
tribal lenders in the Southern District of New York
and the Second Circuit. Id. 17a ¶ 213. At that time,
the State of New York was attempting to enforce its
usury laws against these purported tribal lending
entities. Resp. App. 17a ¶ 212. The lawyer that Think
Finance hired sought a preliminary injunction against
the State of New York to prevent it from enforcing its
laws. Kenneth Rees wrote memoranda regarding this
litigation to Think Finance’s Board of Directors, which
included representatives from Sequoia and TCV: “We
are waiting on tenterhooks to learn the outcome of
the challenge against New York.” Resp. App. 18a
¶ 215. Despite Think Finance’s best efforts, both the
Southern District of New York and the Second Circuit
held that state law, not tribal law, applied. OtoeMissouria Tribe of Indians v. N.Y. State Dep’t Fin.
Servs., 974 F. Supp. 2d 353 (S.D.N.Y. 2013) aff’d 769
F.3d 105 (2d Cir. 2014). Rees reported the district
court opinion to the Board of Directors (including
Sequoia and TCV), complaining of the “unexpectedly
negative tone of the judge’s decision in the New York
case. . . .” Resp. App. 19a ¶ 218. After the Second
Circuit affirmed the denial of the preliminary injunction, Think Finance stopped funding the litigation and
the nominal plaintiffs voluntarily dismissed their
case. Even though Think Finance was aware of the
Otoe decisions, the Plain Green enterprise continued
to issue loans to borrowers at illegal interest rates. It
also denied that any state or federal laws applied to its
lending activities directed at consumers with no
connection to the tribe or its reservation.

17
Before the Otoe decisions, Think Finance had
planned to cash out its investors (including Sequoia
and TCV) in an initial public offering. Id. 16a ¶ 210.
To succeed in its IPO, Think Finance undertook the
euphemistically named “tribal restructure” to reduce
the appearance of its complete control over the Tribes.
Id. 13a-16a ¶¶ 201-211.
After the district court issued its decision in the Otoe
case, Think Finance cancelled its IPO and segregated
its illegal tribal lending business from its state
licensed lending. Id. 19a ¶ 218. Rees discussed the
change with the Board of Directors (including Sequoia
and TCV). Think Finance spun-off its state licensed
payday lending business into a new company, Elevate
Credit. Id. 20a-23a ¶ 220-227. In the Think Finance
bankruptcy proceeding, the Creditors’ Committee has
filed a pleading alleging that Think Finance fraudulently conveyed tens of millions of dollars to its
shareholders, including Sequoia and TCV. In re Think
Finance, No. 17-33964, Dkt. 1510, at ¶ 43 (N.D. Tex.
September 20, 2019).
F.

Rule 15 Statement.

Supreme Court Rule 15 requires Ms. Given and Ms.
Gingras to identify in their brief in opposition “any
perceived misstatements of fact or law.” The parties
have fundamental disagreements over the facts. In
Ms. Given’s and Ms. Gingras’s view, much of what is
said in the Petition is incorrect. Sequoia and TCV
have made at least the following misstatements:
 “Plaintiffs brought this putative class
action against Plain Green.” Pet. at 5.
Response: Plaintiffs have not sued Plain
Green. Rather, Plaintiffs allege that Plain

18
Green was a RICO enterprise.
App. 114a-117a, 130a, ¶ 76.

See Pet.

 “Everyone agrees that the agreements to
arbitrate at issue here contain delegation
provisions which ‘clearly and unmistakably’ provide that an arbitrator, rather
than a court, is to resolve the gateway issue
of whether each agreement to arbitrate is
enforceable.” Pet. at 2.
Response: Plaintiffs do not agree. Plaintiffs devoted an entire section of their
Second Circuit brief to arguing the
opposite. See, e.g. Resp. CA Br. at 79 in
Second Circuit (“The Delegation Clause
Does Not Clearly And Unmistakably
Delegate The Issue Of Arbitrability To The
Arbitrator.”) In fact, the courts below
agreed with Plaintiffs’ position on the issue
or addressed it. Pet. App. 61a-63a, 21a22a.
 “The Second Circuit, by contrast, ruled in
this case that a court may set aside a plain
delegation provision – and proceed to address whether the agreement to arbitrate
the underlying dispute is enforceable –
without first ruling on the validity of the
delegation provision.” Pet. at 3.
Response: The quoted statement is not an
accurate description of the Second Circuit’s
opinion, which determined that the delegation provision is unenforceable. See infra
at 20-24.

19
 Sequoia and TCV identify a part of the
agreement that they believe constitutes the
“delegation clause.” Pet. at 5.
Response: Plaintiffs do not agree that
Sequoia and TCV have correctly identified
the actual delegation clause. Other portions of the arbitration agreement deal
with the power of the arbitrator to decide
disputes. In particular, the phrase “. . . the
parties agree that the arbitrator has no
authority to conduct class-wide proceedings
. . .” means the arbitrator has no power to
decide class wide disputes. See infra at
28-29.
 Sequoia and TCV claim that other Defendants merely “serviced the loans made by
Plain Green.” Pet. at 5.
Response: Plaintiffs do not agree. This
contention is contrary to the core allegations of the Amended Complaint, the evidence provided to the district court, and the
evidence that has been uncovered in the
bankruptcy court in the Northern District
of Texas. Pet. App. 119a, ¶23; 126a, ¶¶5456, 58; 128a-133a, ¶¶69-71, 77-91; see
supra at 14-17. In fact, the Amended
Complaint expressly alleges that “Defendant Rees and Think Finance hoped to avoid
liability by falsely claiming that they only
provided services to Plain Green, when in
reality they created the whole enterprise
and ran its operations . . .” Pet. App. 135a,
¶101 (emphasis added).

20
 Sequoia and TCV contend that they are
merely “investors” in Think Finance. Pet.
at 5-6
Response: Plaintiffs do not agree. Sequoia
and TCV had representatives on Think
Finance’s Board of Directors and were
involved in the management of Think
Finance. CA2 J. App. 277-280. Additional
evidence developed in the Think Finance
bankruptcy supports Plaintiffs’ contention
that Sequoia and TCV were much more
than investors. See supra at 14-17.
ARGUMENT
I. PETITIONERS’ FACTBOUND CLAIM THAT
THE SECOND CIRCUIT ERRED IN
APPLYING THIS COURT’S PRECEDENT
DOES NOT MERIT REVIEW.
Petitioners’ principal submission in this Court
is that the Second Circuit’s decision conflicts with
decisions of this Court requiring enforcement of
“delegation” clauses. These clauses are provisions in
arbitration agreements that clearly and unmistakably
provide that issues of arbitrability will be decided by
an arbitrator—unless the delegation clause is itself
unenforceable. The court of appeals, however, expressly acknowledged this principle and the decisions
of this Court establishing it. Petitioners disagree
with the Second Circuit’s application of these settled
principles to the facts of this case, but under this
Court’s Rule 10, “[a] petition for a writ of certiorari is
rarely granted when the asserted error consists of
erroneous factual findings or the misapplication of a
properly stated rule of law.” S. Ct. Rule 10. The
Second Circuit correctly stated the law and then ruled

21
on the validity of the delegation clause with a factual
record of corruption and legal arguments supporting a
holding of invalidity. Petitioners’ factbound claim that
the lower court erred does not justify review.
First, the Second Circuit correctly stated the law:
“In any event, ‘[i]f a party challenges the validity
under [9 U.S.C.] § 2 of the precise agreement to
arbitrate at issue, the federal court must consider the
challenge before ordering compliance with that agreement under § 4.’” Pet. App. 21a quoting Rent-A-Center,
561 U.S. 63, 71 (2010). Petitioners must agree that this
is a proper statement of the law because they quote
exactly the same sentence as the proper statement of
the law. Pet. at 8 quoting Rent-A-Center, 561 U.S. at 71.
Second, despite Sequoia’s and TCV’s claim, the
Second Circuit actually ruled on the delegation clause.
Earlier in its opinion, the court of appeals noted the
district court’s detailed discussion of the Arbitration
Agreement, including the delegation clause. See 8a
citing Gingras v. Rosette, No. 15-cv-101, 2016 WL
2932163, at *13-*18. In the paragraph Petitioners
scrutinize, the court of appeals also said that the
“specific attack on the delegation provision is sufficient to make the issue of arbitrability one for a federal
court.” Pet. App. 21a-22a. The court of appeals then
held that “Plaintiffs mount a convincing challenge to
the arbitration clause itself,” a statement that in
context plainly referred to the delegation clause. Pet.
App. 21a. It also held that the “district court was
correct to decide it, and we properly consider it on
appellate review.” Id. The “it” was Plaintiffs’ specific
attack on the delegation clause. These statements
unambiguously indicate that the court was affirming
the district court’s invalidation of the delegation
clause.

22
Third, the record in the district court and the court
of appeals contained more than the allegations of the
Amended Complaint. While Plaintiffs alleged that the
delegation clause was fraudulent in their Amended
Complaint, they also supplied detailed argument and
evidence concerning the delegation clause. Plaintiffs
used over 16 pages of their brief in the Second Circuit
to attack the delegation clause specifically. Resp. CA
Br. at 79-96. In their brief, Plaintiffs argued that the
plain text of the delegation clause did not clearly and
unmistakably delegate the issue of arbitrability to the
arbitrator in class wide cases. Id. at 80-81 (discussing
the language “. . . the parties agree that the arbitrator
has no authority to conduct class-wide proceedings. . .”).
Plaintiffs also argued that Chippewa Cree law did not
empower arbitrators to decide whether disputes are
arbitrable. Id. at 81-82. In addition, Plaintiffs argued
that the delegation clause is unconscionable because it
is illusory. Id. at 87-89. The law that Think Finance
wrote preordained the outcome of both the arbitrator’s
decision on arbitrability and the merits. The combination of Section 10-8-101 and 10-3-601 of the Chippewa
Cree Code mean that the only way to avoid an
arbitration agreement is to opt out in one day. CA2 J.
App. 323, 342. Under these sections, Chippewa Cree
law preempted all other remedies, including those
remedies in the Federal Arbitration Act. Plaintiffs
argued that the delegation clause was fraudulent
because it relies on a tribal court that had been
corrupted and intimidated into issuing rulings that it
knew were legally wrong. Resp. CA Br. at 89-92.
To support their arguments, Plaintiffs cited to
significant evidence of corruption in the core of the
judicial systems of the Chippewa Cree. Resp. CA Br.
at 58-62, 75, 87, 89-94 citing CA2 J. App. 73, 75, 263,
280-85, 293-313, 342, CA2 Supp. App. 13-31, 94-133.

23
These documents included joint FBI and Department
of Interior investigations, interviews with tribal members, affidavits from former Plain Green officers, and
guilty pleas from former Plain Green officers. Petitioners never even attempted to rebut this evidence.
Plaintiff’s arguments on appeal, moreover, were
thoroughly grounded in the record of the district court
proceedings. Plaintiffs had specifically challenged the
delegation clause in response to the Motions to Compel
Arbitration in the district court. Dist. Ct. Dkt. 85 at
57-63. The attack in the district court relied on the
same basic facts and evidence that Plaintiffs later
relied on in the court of appeals. Dist. Ct. Dkt. 85 at
4, 54-55. Even before that, Plaintiffs’ Complaint had
specifically alleged that the delegation clause was
unenforceable. Pet. App. 143a, ¶131.
Plaintiffs’ challenge to the delegation clause far
exceeded what is required by Rent-A-Center for attacking delegation clauses. Rent-A-Center looked to an
opposition to a motion to compel to determine whether
there was a specific challenge to a delegation clause.
Rent-A-Center, Inc. v. Jackson, 561 U.S. 63, 72-73 (2010).
Other courts of appeals have likewise recognized RentA-Center’s holding that a specific attack on a delegation
clause can be made in an opposition to a motion to
compel arbitration. Parm v. Nat’l Bank of Calif., 835
F.3d 1331, 1335 n.1 (11th Cir. 2016); see also Hayes,
811 F.3d 666, 671 n.1 (4th Cir. 2016); Parnell v. CashCall,
Inc., 664 Fed. Appx. 841, 844 (11th Cir. Nov. 21, 2016).
The Second Circuit addressed some, but not all, of
Plaintiffs’ arguments and evidence in its decision. The
Second Circuit held that the “arbitration agreements”—including the delegation clause—“are unenforceable because they are designed to avoid federal
and state consumer protection laws.” Pet. App. 23a

24
citing CA2 J. App. 116-17. The Second Circuit also
held that the “arbitration agreements are substantively unconscionable under Vermont law because the
arbitral forum for which they provide is illusory.” Pet.
App. 24a. The Second Circuit noted that the forum
would have to apply the law that Think Finance wrote
to serve its own ends. The Second Circuit also discussed the allegations and evidence that showed
that there was corruption and intimidation of the
Chippewa Cree judiciary. The court cited Plaintiffs’
allegations and evidence (including the FBI and
Department of the Interior investigations) cited in the
Joint Appendix. Pet. App. 25a citing CA2 J. App. 279281.
These same reasons also applied to arbitration
agreement as whole and rendered it as well as its
delegation clause unenforceable. But the Rent-ACenter Court only held that an attack on the
delegation clause must be specific. It did not hold that
the reasons for invalidating the delegation clause
must be unique to it. MacDonald v. CashCall, Inc.,
883 F.3d 220, 226 (3rd Cir. 2018) citing Rent-A-Center,
561 U.S. at 74.
II. THERE IS NO CIRCUIT SPLIT.
Petitioners’ search for a circuit split suffers from a
fundamental misunderstanding of a court of appeals’
obligation to the parties. Petitioners conflate what
a court of appeals must consider with what it must
write.
There is no circuit split because all circuits agree on
what the relevant law is. Gingras v. Rosette, 922 F.3d
112, 126 (2d Cir. 2019); MacDonald, 883 F.3d at 226;
Minnieland Private Day Sch., Inc. v. Applied Underwriters Captive Risk Asssur. Co., 867 F.3d 449, 455

25
(4th Cir. 2017); Jones v. Waffle House, Inc., 866 F.3d
1257, 1264 (11th Cir. 2017); Parm v. Nat’l Bank of Cal.,
N.A., 835 F.3d at 1334; Hayes v. Delbert Serv. Corp.,
811 F.3d at 671 n 1 (all cases citing Rent-A-Center).
The courts of appeals all agree that Rent-A-Center
provides the relevant law and standards for deciding a challenge to the delegation clause, and that
Rent-A-Center requires that when a delegation clause
clearly and unmistakably delegates arbitrability to an
arbitrator, a court must enforce the delegation clause
unless it is specifically challenged and the court finds
it unenforceable.
The courts of appeals also are in agreement that
when a party specifically challenges a delegation
clause, the basis for that challenge need not be distinct
from the party’s challenge to the arbitration agreement as a whole: The delegation clause may be invalid
for reasons that are the same as or similar to the
reasons the agreement as a whole is unenforceable.
See MacDonald, 883 F.3d at 226; see also Minnieland,
867 F.3d at 455–56 (holding delegation clause unenforceable for reasons also applicable to arbitration
agreement as a whole); cf. New Prime Inc. v. Oliveira,
139 S. Ct. 532, 538 (2019) (holding that FAA did not
require enforcement of delegation clause for the same
reason it did not require enforcement of arbitration
agreement as a whole).
Sequoia’s and TCV’s claim that there is a circuit
split rests on a misunderstanding of the obligation of
the circuit court when it rules. A court of appeals need
not even issue an opinion. “There is no requirement
in law that a federal appellate court’s decision be
accompanied by a written opinion.” Forman v. United
States, 720 F.2d 263, 264 (2d Cir. 1983); see also Fed.
R. App. P. 36. In the Second Circuit, many decisions

26
flow from summary orders. Second Circuit Local Rule
of Procedure 32.1.1. When appellate courts consider
or decide issues about a delegation clause, they do not
have the burden of providing an extensive explanation
of their reasoning or, in fact, any explanation. Taylor
v. McKeithen, 407 U.S. 191, 194 n4 (1972)(“We, of course,
agree that courts of appeals should have wide latitude
in the decisions of whether or how to write opinions.”).
Courts of appeals provide differing levels of
explanation every day when they confront all types of
legal issues. The same is true with opinions on
delegation clauses. For example, in Hayes, the Fourth
Circuit said only: “We find, however, that Hayes
and his co-plaintiffs have challenged the validity of
that delegation with sufficient force and specificity to
occasion our review.” 811 F.3d at 671, n. 1. Later
Fourth Circuit panels have had no issue with Hayes’s
relegation of its explanation to a terse footnote, even
though the subsequent panels provided more extensive explanations in their opinions. Minnieland, 867
F.3d at 456 (citing Hayes with approval). The differing
levels of explanation provided by the courts of appeals
do not signal any sort of disagreement on the law.
In this case, the court of appeals did more than the
law required; it provided a detailed explanation of its
reasoning when it affirmed the district court. This
Court should not be concerned that two Silicon Valley
hedge funds are disappointed in the Second Circuit’s
explanation. They will never be satisfied with any
explanation of why what they thought was a foolproof
legal strategy to avoid responsibility for their illegal
loan sharking scheme suddenly collapsed. All that law
requires is consideration and decision, not explanation. There is no conflict among the circuits.

27
III. THE PETITION’S CHALLENGE TO THE
ADEQUACY OF THE SECOND CIRCUIT’S EXPLANATION OF ITS HOLDING
THAT THE DELEGATION CLAUSE IS
UNENFORCEABLE DOES NOT INVOLVE
AN IMPORTANT ISSUE.
This Court’s rules state that: “A petition for certiorari will be granted only for compelling reasons.”
S. Ct. R. 10. Indeed, this Court will only consider
conflicts “with the decision of another United States
court of appeals on the same important matter.”
S. Ct. R. 10(a) (emphasis added).
The issue here does not rise to the level of an
important matter. The Court has better things to do
than weigh in on the level of explanation that a court
of appeals must give in dismissing an attempt by a
non-party to enforce an arbitration agreement with a
delegation clause as obviously infected by fraud and
unconscionability as this one.
IV. THIS CASE IS A POOR VEHICLE FOR
CONSIDERING THE ISSUE PETITIONERS SEEK TO PRESENT.
A. There Are Several Alternative Bases
for Resolving the Arbitration Issues.
Notably absent from the petition is any reference to
the fact that Sequoia and TCV did not sign the
arbitration agreement, while the Defendants that are
parties to the agreement have abandoned any efforts
to overturn the Second Circuit’s ruling. Sequoia and
TCV not only failed to apprise the Court of this fact,
but also omit to mention that Plaintiffs argued below
that Sequoia and TCV could not take advantage of
the Arbitration Agreements because they had no
agreement with Plaintiffs. Resp. CA Br. at 96-103.

28
Plaintiffs also argued that Sequoia and TCV did not
meet the legal test for third parties to force compliance
with an arbitration agreement. Resp. CA Br. at 96-103.
Sequoia’s and TCV’s participation in a nationwide
RICO loan sharking scheme undermines any claim
that they have to equitably estop the Plaintiffs. The
absence of any equitable basis for enforcement of the
agreement by these parties may make the Court’s
consideration of the issue here irrelevant. Thus, any
resolution of the question presented will not resolve or
seriously advance the case.
The district court alternatively held that the plain
language of the arbitration agreement excluded the
arbitrator from ruling on the arbitrability of class wide
disputes, and the court of appeals noted that this
limitation on the arbitrator’s authority to resolve
questions of arbitrability called into question the scope
of any claimed delegation. Pet. App. 62a-63a & 21a.
Rather than acknowledging this issue, Petitioners
resort to claiming: “Everyone agrees that the agreements to arbitrate at issue here contain delegation
provisions which ‘clearly and unmistakably’ provide
that an arbitration, rather than a court, is to resolve
the gateway issue of whether each agreement to
arbitrate is enforceable.” To be clear, Plaintiffs do not
agree. Plaintiffs disputed this at the district court
level and the court of appeals. See Dist. Ct. Dkt. 85 at
57 & CA Resp. Br. at 79. Other portions of the
arbitration agreement deal with the power of the
arbitrator to decide disputes. In particular, the phrase
“. . . the parties agree that the arbitrator has no
authority to conduct class-wide proceedings . . .”
means the arbitrator has no power to decide class wide
disputes. See CA 2 J. App. 265. The district court
agreed with Plaintiffs’ reading of the text of the
arbitration agreement and the court of appeals, at a

29
minimum, left the issue open. Pet. App. 62a-63a &
21a.
Several other unresolved issues related to the
invalidity of the delegation clause remain at the court
of appeals and district court. See Resp. CA Br. at 7996, Dist. Ct. Dkt 85 at 4, 54-63. In its opinion, the
district court noted but did not rule on some of
the arguments that Plaintiffs had made against the
delegation clause. Pet. App. 62a. Prior to ordering
arbitration, the district court would have to revisit
these fact-based arguments and rule on them.
B. The Case is in
Awkward Posture.

a

Procedurally

The district court has granted Plaintiffs leave to
amend. Pet. App. 100a-101a. Sequoia and TCV did
not appeal the district court’s granting of leave to
amend. The proceedings in this Court could be
affected by the filing of a new complaint.
The facts discovered in the Think Finance bankruptcy provide more bases to invalidate the delegation
clause. For example, as Ms. Raining Bird explained,
Think Finance wrote the Chippewa Cree law that any
arbitrator would have to apply in ruling on any
dispute. Think Finance also insisted on the application of tribal law even after litigation it directed
and sponsored showed that state law applied. Think
Finance took these actions as Mr. Rees presented
them to the Board of Directors, which included
Sequoia and TCV. There are many more facts
detailing the corruption that exists that remain
protected by protective orders.
Neither the district court nor the court of appeals
had an opportunity to review these facts as they were
discovered after Plaintiffs filed the Amended Com-

30
plaint and briefed the issues to both courts. These
facts (and others facts still obscured from public view
by protective orders) would certainly inform the
decision about the fraudulent nature of the delegation
clause.
V. PETITIONERS’
POSITION
IN
THE
COURT BELOW IS INCONSISTENT WITH
THEIR ARGUMENT IN THIS COURT.
It is possible that Sequoia and TCV will argue in
reply that the district court and the court of appeal
erred by not examining the facts more fully. Sequoia
and TCV cannot argue this position because they took
the opposite position below. In response to Plaintiffs’
request for discovery resolving the arbitration issues,
the Defendants said: “Plaintiffs request both prearbitration discovery and a jury trial on the issue of
arbitrability. Plaintiffs fail to identify, however, any
particular discovery they need to demonstrate that the
arbitration agreements are unconscionable or any fact
issues as to the making of the arbitration agreements.”
Dist. Ct. Dkt. 95 at 14 n 18 in Gingras v. Rosette,
No. 5:15-cv-101 (December 9, 2015). When Plaintiffs
presented both Additional Allegations and the
evidence that supported those allegations (CA2 J. App.
277-313), Defendants urged the district court not to
consider this evidence because the “[c]ourts, however,
do not consider allegations raised for the first time in
opposition.” Dist. Ct. Dkt. 95 at 12 n.13. In response
to evidence submitted about corruption in Chippewa
Cree tribal judiciary, Appellants complained that
“there are no allegations in the [First Amended
Complaint] showing any such dispute.” Dist. Ct. Dkt.
95 at 11. Sequoia and TCV joined the briefs of these
other parties in their own reply briefs in the district

31
court. Dist. Ct. Dkt. 97 at 1 n.1; Dist. Ct. Dkt. 99 at 1
n.2.
Moreover, the issue of whether there should be a
trial on the facts related to the arbitration agreements
and delegation clauses is already back before the
district court. An affiliate party has raised the issue
of whether the validity of the arbitration agreement
must be reexamined on a broader factual record.
Haynes Investments, LLC Motion to Compel Arbitration, Dkt No. 57 at 11 in Gingras v. Victory Park, LLC,
No. 5:17-cv-233 (D.Vt.) (October 25, 2019) (“Plaintiffs,
as the party resisting arbitration, must produce admissible evidence sufficient to prove their defense(s)
to arbitration.”) (emphasis in original).
Until recently, Ms. Given and Ms. Gingras have
been the only ones that have insisted on an examination of the facts. Since the Think Finance bankruptcy,
the facts have only grown stronger that the entire
enterprise is fraudulent. Sequoia and TCV have never
contested the facts that Ms. Given and Ms. Gingras
raise. The Court should deny the petition for certiorari
and allow the case to proceed to trial.
Respectfully submitted,
KATHLEEN M. DONOVAN-MAHER
STEVEN J. BUTTACAVOLI
BERMAN TABACCO
One Liberty Square
Boston, MA 02109
(617) 542-8300
kdonovanmaher@
bermantabacco.com
sbuttacavoli@
bermantabacco.com

MATTHEW B. BYRNE
Counsel of Record
GRAVEL & SHEA PC
76 St. Paul Street
7th Floor
P.O. Box 369
Burlington, VT 05402
(802) 658-0220
mbyrne@gravelshea.com

Counsel for Respondents
November 26, 2019

APPENDIX

1a
APPENDIX A
[1] UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF TEXAS
————
Case No. 17-33964
(HDH) Volume 3
————
IN RE:
THINK FINANCE, LLC, ET AL
————
VIDEOTAPED EXAMINATION UNDER OATH OF
BILLI ANNE RAINING BIRD
BE IT REMEMBERED, the Videotaped Examination Under Oath of BILLI ANNE RAINING BIRD was
taken by Mr. Steven Ellis, Attorney at Law, for the
Debtor, at the Baldwin Court Reporting Offices, 306
3rd Avenue, Suite 202, Havre, Montana, on Friday,
October 5, 2018, beginning at the hour of 10:26 AM.
Reported by Stacy M. Baldwin, Registered Professional Reporter and Notary Public.
[2] APPEARANCES:
ATTORNEY APPEARING ON BEHALF OF THINK
FINANCE:
MR. STEVEN A. ELLIS
Attorney at Law
GOODWIN PROCTER LLP
601 South Figueroa Street
Los Angeles, California 90017
Sellis@goodwinlaw.com
(Appeared via telephone)

2a
ATTORNEY APPEARING ON BEHALF OF THINK
FINANCE:
MR. LEO WARD
Attorney at Law
BROWNING, KALECZYC, BERRY & HOVEN, P.C.
201 West Railroad, Suite 300
Missoula, Montana 59802
Leow@bkbh.com
(Appeared via telephone)
ATTORNEY APPEARING ON BEHALF OF
VIRGINIA CLAIMANTS:
MR. ANDREW J. GUZZO
Attorney At Law
KELLY & CRANDALL, PLC
500 Ala Moana Blvd., Ste. 400
Honolulu, Hawaii 96813
Aguzzo@kellyandcrandall.com
(Appeared via telephone)
ATTORNEY APPEARING ON BEHALF OF MS.
MILLER:
MR. MATTHEW B. BYRNE
Attorney at Law
GRAVEL & SHEA PC
76 St. Paul Street, 7th Floor
P.O. Box 369
Burlington, Vermont 05402-0369
Mbyrne@gravelshea.com
(Appeared via telephone)
The videographer: Jennifer K. Wells

3a
[3] PAGE
INDEX
VIDEOTAPED EXAMINATION OF
BILLI ANNE RAINING BIRD
BY MR. ELLIS
BY MR. GUZZO
BY MR. BYRNE
BY MR. ELLIS
BY MR. GUZZO

6
63
141
162
168

Certificate Page

176
MARKED
EXHIBITS

Exhibit 4

Email Chain - Bates No.
TF-PA-319516 and Tf-PA-3l9517
Exhibit 5 Amended and Restated Loan Sale
Agreement - Bates No. TF-PA386399 through and including TFPA-386427
Exhibit 6 Email Chain
Exhibit 7 Email Chain
Exhibit 8 Email Chain
Exhibit 9 Email Chain
Exhibit 10 Audit Report Year Ended
September 30, 2011
Exhibit 11 Email Chain with Attachment –
Bates No. TF-BK-VA FOO_ 0027758
through and including
TF-BK-VA_FOO_0027921
Exhibit 12 Time Sheet for Think Finance –
Chippewa Cree Transaction

28

30
34
37
42
47
55

60

68

Exhibit 13
Exhibit 14
Exhibit 15

Exhibit 16

Exhibit 17

Exhibit 18
Exhibit 19

Exhibit 20

Exhibit 21
Exhibit 22

Exhibit 23
Exhibit 24

4a
Email - Bates No. Haynes
0000446
Email Chain - Bates No. Haynes
0000447 and Haynes 0000478
Servicing Agreement - Bates No.
TF-VA013170 through and
including TF-VA013184
Marketing Agreement - Bates No.
TF-PA-001151 through and
including TF-PA-001166
Participation Agreement - Bates
No. TF-PA-000038 through and
including TF-PA-000068
Consumer Installment Loan
Agreement
Email Chain - Bates No.
TF-VA025676 through and
including TF-VA0256578
Loan Underwriting Policy –
Bates No. TF-VA 0701951 through
and including TF-VA 0701957
Email Chain - Bates No.
TF-VA0701958
Email Chain - Bates No.
TF-VA0736214 through and
including TF-VA0736217
Email Chain - Bates No.
TF-VA0733316 and TF-VA0733317
Email - Bates No.
TFBK-NC-000162 and
TFBK-NC-000163

75
81
88

99

105
111
129

133
136
142
146
153

5a
Exhibit 25 Email Chain - Bates No.
TF-VA0734734 through and
including TF-VA0734737
Exhibit 26 Email Chain - Bates No.
TF-VA0734130 through and
including TF-VA0734132
Exhibit 27 Letter - Bates No. TF-VA0412413
* * *

155

156
156

[69] BY MR. GUZZO:
Q. Ms. Raining Bird, do you recognize this
document?
A. Yes.
Q. And what is your understanding of what this
document is?
A. This basically outlines like the basic agreement
between the Tribe and all the other parties involved.
This is like our initial proposal from Think Finance.
Q. Okay. And who created this document?
A. I believe they did, Think Finance.
Q. Okay. So it’s your understanding that Think
Finance actually typed the words on the page?
A. I’m pretty sure they did, yes.
MR. ELLIS: Objection, lack of foundation.
BY MR. GUZZO:
Q. Okay. Let me ask it this way, Ms. Raining Bird,
you didn’t type the words that appear on this term
sheet, did you?
A. No.

6a
Q. And is it your understanding that the words that
were typed on this page were typed by [70] Think
Finance?
A. Yes.
MR. ELLIS: Objection, foundation.
BY MR. GUZZO:
Q. Okay. And to your knowledge, no one at Plain
Green or its attorney typed the words that appear on
this term sheet; is that right?
A. No.
Q. Before the words actually appeared on the pages,
how much of this had been negotiated and agreed to
between Think Finance and the Tribe?
A. How much had been negotiated?
Q. Correct.
A. Actually, from the beginning, I don’t think any of
this was negotiable.
Q. Okay. So, would it be fair to say, that this was
presented to the Tribe as a take-it-or-leave-it type
deal?
A. Yes.
Q. And I want to draw your attention to the second
paragraph on the first page. Do you see where it says
that the Tribe will adopt a finance code that’s acceptable to all parties?
A. Yes.
Q. Do you know if the tribe adopted a [71] financial
code that was acceptable to Think Finance?
A. Yes.

7a
Q. And before the code was adopted, would it would
be fair to say, that the code was shared with and
approved by Think Finance?
A. Yes.
Q. And do you know if Think Finance actually back
drafted the Chippewa Cree transaction code?
A. Yes, they did.
Q. Do you know if the Tribe made any revisions to
Think Finance’s draft of the code?
A. If they did, they were very minimal.
Q. And why was that?
A. I meant, like you said, you know, this is what we
need in place and I guess if we wanted the business
then we adopt the code that they – that was placed in
front of us – or them, the Tribe.
Q. Okay. And so were you concerned if that you
didn’t adopt Think Finance’s code they would take the
business to another tribe?
A. Yes.
Q. Okay. And I want to draw your attention now to
the third paragraph, where it identifies the initial
product that will be offered by Plain [72] Green, do you
see that, it’s on third paragraph?
A. Yes.
Q. Okay. How did the Tribe determine that the
initial product would be an installment loan of $2,500?
A. How did the Tribe determine?
Q. Yeah, was that something that was –
A. No.

8a
Q. – suggested by Think Finance?
A. Yes, the Tribe didn’t determine the terms.
Q. Okay. And so do you know if this was the
maximum loan amount used by Think Finance for its
First Bank of Delaware product?
A. I believe it was, yes.
Q. Okay. And have you done any research about the
minimum or maximum loan amounts as of March
2011?
A. Had I done any research?
Q. Yes.
A. No, I had not, and I did not, so, no.
Q. So, if I ask you what factors lead to the selection
of the $2,500 loan amount, would it be fair to say, that
essentially that was Think Finance’s decision?
* * *
[137] right?
A. Yes.
Q. And then, Mr. Rosette asks Mr. Smith how to
proceed; is that right?
A. Yes.
Q. And then, do you see where it says, where Mr.
Smith says: When you receive complaints and
correspondence like this, will you email them to
legal@PlainGreen.com? Do you see that?
A. Yes.
Q. And then do you see where it says that Mr. Smith
then says: That will initiate the process to get you into

9a
our system, logged and assigned to the correct person.
Do you see that?
A. Yes.
Q. And so, would it be fair to say, that Think Finance
controlled or had access to the legal@plaingreenloans.
com email address?
A. Yes.
Q. And during your time at Plain Green, to the best
of your knowledge, Plain Green didn’t have access to
that account; is that right?
A. No.
Q. No, they did have access or –
A. No.
[138] Q. – or they did not have access?
A. No, we did not have access.
Q. Okay. And so, when a consumer emailed that
address, it actually went to Think Finance not Plain
Green; is that right?
A. Yes.
Q. And then Think
complaints; is that right?

Finance

handled

those

A. Yes.
Q. And was Plain Green provided with a copy of
those complaints?
A. Yes.
Q. And so, how would Think Finance provide a copy
of the complaint to Plain Green?

10a
A. Well, through email, through Neal Rosette, Jr.,
and then they got the FTP site set up to where they
could share the information online.
Q. But Think Finance was tasked with the
responsibility of handling consumer complaints
during your tenure at Plain Green, correct?
A. Not – I meant, yes, they drafted the letter
regarding the complaint, depending on like the BBB
letters, most of those became like a, you know, like a
form letter that was sent out to [139] every consumer
that we received a complaint from. But it just depends
on where the letter came from. But they drafted the
original letters and then we were responsible for, you
know, sending out the letter from our office. They
would send us, you know, all the letters and all the
names of these people who need to receive letters.
Q. Okay. And so, this is my final line of questioning.
Earlier you were asked about your understanding of
the term rent a tribe, do you remember that?
A. Yes.
Q. And so, its your position that the relationship
between Think Finance and Plain Green was a rent a
tribe business model; is that right?
A. Yes.
MR. ELLIS: Object as to form.
BY MR. GUZZO:
Q. And I just want to quickly summarize, if we can
real quick here. It would be your position that Plain
Green had no meaningful input on the underwriting of
the loans; is that correct?
A. No, we did not.

11a
MR. ELLIS: Object as to form.
[140] BY MR. GUZZO:
Q. No, you did not have any meaningful input
regarding underwriting; is that right?
A. No, we did not.
Q. And would that be the same answer for the
origination of the loans?
A. Yes, same answer.
Q. And would that be the same answer for the
servicing of the loans?
A. Yes.
MR. ELLIS: Object as to form.
BY MR. GUZZO:
Q. And would that be the same answer as to the
marketing of the loans?
A. Yes.
MR. ELLIS: Same objection.
BY MR. GUZZO:
Q. And would that be the same answer for the
collection of the loans?
A. Yes.
Q. And so, because Plain Green had no role in the
underwriting, origination, servicing or marketing, or
collection of the loans, that is why you would
characterize it has as a rent a tribe scheme?
A. Yes.

12a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
————
No. 14-cv-07139-JCJ
————
COMMONWEALTH OF PA,
by Attorney General JOSH SHAPIRO,
Plaintiff,
v.
THINK FINANCE, INC., et al.
Defendants.
————
CIVIL ACTION
————
CONFIDENTIAL
Filed Under Seal Pursuant to Confidentiality and
Protective Order
————
STATEMENT OF UNDISPUTED FACTS IN
SUPPORT OF THE PLAINTIFF’S MOTION FOR
PARTIAL SUMMARY JUDGMENT AGAINST
DEFENDANTS KENNETH REES AND NATIONAL
CREDIT ADJUSTERS, LLC1
1

The discovery record on which this Statement of Undisputed
Facts is based consists primarily of documents produced in discovery by the various parties and deposition testimony. Most of
the document production was electronically stored information.

13a
* * *
201. By the end of 2012, in its internal communications among executive and with the three tribal lending entities, TF discussed the following ‘concerns’
regarding the tribal model:

 “Concern that although tribes have sovereign immunity, service providers (eg us) may
have potential liability

 States may claim that the loans are illegal
(even if tribal lenders have sovereign protections)

 States may claim that the tribe is not the
‘true lender’

Documents produced by the Think Finance Defendants have the
Bates-prefix “TF-PA.” Those produced by the Victory Park Capital Defendants have the prefix “GPLP.” Those produced by the
Pennsylvania Attorney General have the prefix “PAOAG.” Those
produced by Kenneth Rees have the prefix “REES.” Those produced by National Credit Adjusters have the prefix “NCA_PA.”
Documents have also been produced by various third-parties with
prefixes “Haynes,” “INTERCEPT,” “Intercept_PA-Think,” and
“Wildstein.” For ease of reference, Plaintiff has compiled an
Appendix accompanying this filing containing all of the cited
transcripts and documents. Citations in this Statement will be
made to the page and line numbers of deposition transcripts; to
the exhibit number of marked deposition exhibits; and to the
Bates number of the first page of any additional discovery
document, followed by the citation to the Appendix (“App.”). Pin
cites will be made to internal pagination when possible, to Bates
numbers when not, and always to the Appendix. The Declaration
of Iry Ackelsberg, filed with the Motion for Summary Judgment,
contains further details as to how the Appendix was compiled.
* * *

14a
 Recent cases have suggested potential
liability.” 308
202. Included in the company’s suggested responses to these concerns—which it characterized as
“aiding and abetting” and “true lender” concerns309–
were the following suggested changes to the program
in order to “Improve optics”: “No automatic end of day
funding—require daily tribal” and “Eliminate guarantees to vendors from TF.”310
203. As of 2013, TF’s tribal lending model
accounted for 89% of TF’s overall revenue.311
204. In a PowerPoint presentation Defendant Rees
prepared for an off-site executive meeting on March
28, 2013 on the topic “Direction and Focus”,312 Rees
observed that the company’s heavy reliance on its
tribal products meant that “We Are Not Adhering to
Our Diversification Strategy,”313 and that “Industry
Opponents” were putting pressure on ACH providers
and targeting “tribal service providers.”314
205. In this presentation, Rees described various
steps the company should take in order to “Reduce
308

Exhibit P-149, TF-PA-369516, Strengthening the Tribal
Model and Program Update Slides, December 20, 2012, at 3 (App.
1356).
309

Id.

310

Id. at 5 (App. 1358).

311

Exhibit P-179, TF-PA-521098, Tribal Vision and Road Map,
July 2013, at 5 (App. 1384).
312

Exhibit P-399, TF-PA-759909 (App. 1617) (discussed in
Cutrona Dep. 66:13-68:10 (App. 0532)).
313

Id. at 3 (App. 1619).

314

Id. at 4 (App. 1620).

15a
Tribal Risks (Restructure),” including “increase tribal
management and oversight,” “reduce contractual roles
for Think Finance” “improve deal optics,” and “Exit
high-risk states.”315 Regarding this last step, he noted
that it was already “Done,”316 referring to the No-State
initiative described above.
206. In this presentation, Rees also directed the
following additional strategic “Refocus”: “Accelerate
growth of non-tribal business.” 317
207. One component of the tribal “restructure”
Rees had in mind was to redesign the tribal share from
being a percentage of GPLS revenue to a 51% share of
“profit.”318 But in a communication to Richard Levy,
the owner of VPC, concerning that proposed change,
Rees assured Levy that the change would not change
the substance of the parties’ relative economic stake,
but instead “should greatly change the ‘optics’ of the
deal.”319
208. In a May, 2013 communication with the
lawyer representing Plain Green and MobiLoans, GC
Cutrona requested a change in the contractual
language defining the relationship between TF and the
tribal entity, so that unreimbursed expenses would be
listed rather than reimbursed expenses, explaining
315

Id. at 6 (App. 1622).

316

Id. at 7 (App. 1623).

317

Id. at 5 (App. 1621).

318

TF-PA-055009, Email Jason Harvison to Ken Rees, March
7, 2013 (App. 2141) (“To reiterate what you want, you want the
tribe to get 51% program share and adjust the license fees accordingly.”).
319

GPLP00058913, Email from Ken Rees to Richard Levy,
March 29, 2013 (App. 2989-2990).

16a
her reasoning as follows: “I understand this is a bit
backwards but we are concerned (as are the other
attorneys) that the perception that expenses are reimbursed will not be helpful in a true lender challenge.320
209. An April 2013 TF presentation entitled
“Tribal Restructure,” included a question and answer
section: “Why do we need to restructure the model”
and “[W]hat is the risk to the business?” The answer
to these questions was: “States may argue that the tribe
is not the ‘true lender’ due to TF’s involvement.”321
210. The tribal “restructure” initiative was also
viewed by the TF executives as essential for their plan
to take the company public with an IP0.322
211. In a memo to the TF board on June 18, 2013,
Rees reported some progress on the strategic initiative
intended to compliment the tribal “restructure,” involving accelerating the growth in the company’s nontribal products, mentioning the launch of the Rise
product that would take the place of the direct product,
PayDay One.323 In August, Rees further reported to the
board that “we are working on making sure that we

320

TF-PA-398605, Email from Sarah Cutrona, May 29, 2013
(App. 2297-2298).
321

Exhibit P-185, TF-PA-611730, Tribal Restructure Slides
and Transmittal Email, April 2013, at 19 (App. 1414).
322

TF-PA-579753, Q1 2013 Pre-IPO Investors Memo/Opinion
(App. 3069).
323

TF-PA-672268, Memo from Ken Rees to Think Finance
Board Members, June 18, 2013, at 1 (App. 2699).

17a
can quickly and seamlessly migrate customers from
the tribal sites to applicable Rise states if needed.”324
212. On August 5, 2013, New York State sent
cease-and-desist letters to online lenders, including
Great Plain Lending, threatening “appropriate action
to protect New York consumers.”325 In response, the
Otoe-Missouria tribe filed suit against New York,
seeking a preliminary injunction and “alleging that
the State’s effort to regulate Tribal lending is an
affront to Plaintiffs’ inherent sovereignty and violates
the Indian Commerce Clause of the United States
Constitution.”326
213. TF, through its Chief Integrity Officer, Martin
Wong, coordinated that litigation that was filed in the
name of the Otoe-Missouria tribe and provided financing for it, through contributions made to the Native
American Financial Services Association.327

324

TF-PA-514535, Memo from Ken Rees to Think Finance
Board Members, August 14, 2013, at 4 (App. 2435).
325

Otoe-Missouria Tribe of Indians v. New York State Dept of
Fin. Servs., 974 F. Supp. 2d 353, 356 (S.D.N.Y. 2013), aff’d, 769
F.3d 105 (2d Cir. 2014).
326
327

Id. at 357.

Rees Dep. 242:19-244:20 (App. 0081). The plan had been to
file the action on behalf of each of TF’s tribal partners, but by the
time the attorneys were ready to file, only the Otoe tribe had
agreed. See Exhibit P-198, TF-PA-607086, Email from Martin
Wong to David Bernick, August 21, 2013 (App. 1423). Bernick’s
legal bill appears to have been split between TF and the
MacFarlane Group, see Exhibit P-200, TF-PA-367337, Legal Bill
and Transmittal Email (App. 1425), that being one of the
organizations associated with Mark Curry, the online lender that
was the intermediary between TF and the Otoe-Missouria Tribe.
See supra ¶¶ 114-115.

18a
214. On August 20, 2013, VPC notified Rees and
Lutes that it was going to put a halt to all participation
purchases from the tribal entities, but was persuaded
by them to allow some loans to be made to some former
customers.328
215. In his September 18, 2013 memo to the TF
board, Rees noted, “We are waiting on tenterhooks to
learn the outcome of the challenge against New York
State,” expressed the view that “many judges are more
supportive of states’ rights despite hundreds of years
of case law regarding tribal sovereignty,” and
acknowledged newly hired Martin Wong for having
“jumped into the fray by leading the litigation
effort.”329
216. In this same memo, Rees informed the Board
that VPC had put a temporary halt to new tribal loans
due to the “regulatory issues we’ve been facing.”330 He
also expressed “frustration . . . at our inability to complete the tribal restructuring [due to] [t]he tribes . . .
moving extremely slowly.”331 Summing up his view of
the regulatory situation, he observed, “It is a very
dangerous time for financial services industry as a
whole when the primary regulatory agencies (CFPB
and FDIC) are being run by activists . . . in pursuit of
their anti-credit agenda.”332
328

TF-PA-680466, Emails between Thomas Welch and Chris
Lutes, August 20-21, 2013 (App. 2749-2751) (cc’ing Ken Rees and
Richard Levy).
329

TF-PA-513939, Memo from Ken Rees to Think Finance
Board Members, September 18, 2013, at 1, 4 (App. 2428, 2431)
330

Id. at 1-2 (App. 2428-2429)

331

Id. at 2 (App. 2429).

332

Id. at 3 (App. 2430).

19a
217. On September 30, 2013, the district court in
New York denied the request of the Otoe-Missouria for
a preliminary injunction.333
218. On October 16, 2013, Rees reported this
development to the board, and noted that “due to the
unexpectedly negative tone of the judge’s decision in
the New York case GPLS has pulled back again until
the appeal is resolved.”334 He expressed optimism
regarding an appeal, but warned “that it doesn’t really
matter if we have a regulatory cloud over the company
while it winds its way through the courts,” and noted,
“We will also need to discuss options for moving
forward given the ongoing regulatory challenges
related to the tribal products (and the upside from the
non-tribal products).”335 With regard to the non-tribal
installment loan (Rise) that TF had recently launched,
Rees reported that “the first direct mail campaign for
Rise has hit and is delivering great volumes.”336
219. In his December 11, 2013, memo to the TF
board, Rees reported increasing growth of the Rise
portfolio in the 14 states covered at that time, and
introduced the possibility of a new direction for the
company:
As mentioned during the previous Board
meeting we are evaluating a rather draconian
organizational change that we are referring
333

Otoe-Missouria Tribe of Indians v. New York State Dept of
Fin. Servs., 974 F. Supp. 2d 353 (S.D.N.Y. 2013), aff’d, 769 F.3d
105 (2d Cir. 2014).
334

TF-PA-711121, Memo from Ken Rees to Think Finance
Board Members, October 16, 2013, at 2 (App. 2757).
335

Id. at 3 (App. 2758).

336

Id.

20a
to as “Project Exclaim.” This would spin off
several products (Rise, Sunny, and Elastic) to
separate the tribal and non-tribal businesses.
This will cause a fair amount of staff upheaval
but is likely the right thing to do from the
standpoint of potential liquidity events. I will
propose the details (and discuss the implications) at the Board meeting on Friday.337
220. By January 2014, the “Project Exclaim”
initiative was moving forward, as Rees reported to the
board.338 On the tribal side of the business, he had
notified the three tribes of “our plans to split the
company,” and noted with approval “how Chris and his
treasury team are managing the bank” and the
“terrific job” that “Martin and his tribal litigation team
did . . . with the appellate hearing.”339 At the same
time, he reported that “the directors and leaders in the
company are getting charged up about the work ahead
and excited to be able to create a business without the
regulatory overhang of the tribal business.”340
221. On March 13, 2014, CFO Lutes explained the
following two reasons for the impending spin-off:
1. We have always focused on having
multiple products for regulatory diversification. Our tribal partners are in
litigation with the state of NY and this
could last for years. They have chosen
337

TF-PA-724033, Memo from Ken Rees to Think Finance
Board Members, December 11, 2013, at 3 (App. 2762).
338

TF-PA-710924, Memo from Ken Rees to Think Finance
Board Members, January 16, 2014 (App. 2752).
339

Id. at 3 (App. 2754).

340

Id. at 4 (App. 2755).

21a
to not aggressively grow their business
while this gets resolved. Meanwhile
our non-tribal products are really
starting to grow. Rise now our largest
product and we expect to generate
almost $300mm in revs this year off of
non-tribal. The tribal litigation would
hold up our ability to go public. Spinoff
enables the new entity to go public and
allows Think (tribal business) to turn
in to a dividend play.
2. ACH and corporate banking issues
again weighing down non-tribal business. Spin off should allow easier ACH
and corporate banking access.341
222. In order to be able to accomplish the spinoff
transaction envisioned by TF’s “Project Exclaim” initiative, Rees personally engaged with VPC to support the
transition away from the tribal model and to raise cash
for the Rise product. As Tom Welch, the VPC principal
in charge of the account stated, “Rise doesn’t happen
w/o GPLS’ cooperation.”342
223. Rees and Lutes pushed successfully for that
cooperation, for example, suggesting to VPC that it
move its investment from GPLS to RISE, albeit at a
lower rate;343 securing VPC permission to redeem
$50m of GPLS investments without a pre-payment
341

Exhibit P-267, TF-PA-210850, Email from Badr Qureshi to
Chris Lutes, March 13, 2014 (App. 1471).
342

Exhibit P-328, GPLP00016131, Email from Thomas Welch
to Richard Levy, January 16, 2014 (App. 1578).
343

TF-PA-244634, Email from Chris Lutes, October 2, 2013
(App. 1471).

22a
penalty; securing permission to “gross sweep” certain GPLS accounts enabling TF to take its “administrative agent fee” before it was fully earned in order
to create more cash for RISE originations;345 and,
notwithstanding contractual covenants to GPLS that
forbid TF from incurring debt, securing permission to
incur debt for Rise from a different VPC investment
vehicle.346
344

224. Effective May 1, 2014, TF split into two
companies, with Elevate Credit, Inc. taking Rise and
the other “direct” products and TF keeping only the
tribal products.347
225. In the split, Elevate got a copy of the “legacy”
technology platform on which the Plain Green, Great
Plains Lending and Rise products were supported,
with no valuation being assigned to that transfer.348
226. Among the contracts transferred to the new
company was the employment contract between
Defendant Rees and TC Loan Services, Inc.349

344

GPLP00015862, Email from Richard Levy to Ken Rees,
January 14, 2014 (App. 2978).
345

Welch Dep. 100:24-103:3 (App. 0608-0609).

346

Welch Dep. 238:24-240:4 (App. 0616).

347

TF-PA-564956, Separation and Distribution Agreement,
May 1, 2014 (App. 2436).
348
349

Lutes Dep. 274:9-277:5 (App. 0236-0237).

TF-PA-564956, Separation and Distribution Agreement,
May 1, 2014, at Schedule 1.21(d) (App. 2493).

23a
227. While in his new position as CEO of Elevate
Credit, Defendant Rees remained as the Chairman of
TF’s board into 2015.350
228. On May 2, 2014, when he was CEO of Elevate
but still the Chairman of TF, Rees personally
requested the owner of VPC to allow a small increase
in the volume of new tribal loans.351
229. In his first memo to the newly created Elevate
board, Rees observed that “we are learning . . . that
forecasting for Rise growth is very challenging given
the huge variance in loan size, APR, CPL and terms
for each state.”352
230. On October 1, 2014, a panel of the Second
Circuit unanimously affirmed the district court’s denial of the tribal request for a preliminary injunction
`against the New York enforcement action. OtoeMissouria Tribe of Indians v. New York State Dept of
Fin. Servs, 769 F.3d 105 (2d Cir. 2014).
231. On May 15, 2015, after Rees had stepped
down as Chairman of the TF board, he wrote to the
new incoming chair with the following “offline”
comments about
* * *

350

Rees Dep. 64:23-65:6 (App. 0036-0037).

351

TF-PA-297788, Email from Richard Levy to Ken Rees, May
2, 2014 (App. 2226).
352

TF-PA-643587, Memo from Ken Rees to Elevate Board
Members, May 14, 2014, at 1 (App. 2614).

24a
APPENDIX C
Message
From:

Martin Wong
[/O=PAYDAYONE/OU=EXCHANGE
ADMINISTRATIVE GROUP
(FYDIBOHF23SPDLT)/CN=
RECIPIENTS/CN=MARTIN WONGD09]

Sent:

1/20/2014 3:58:39 PM

To:

Fernanda Arana [farana@thinkfinance.com]

Subject: FW: Draft NAFSA Model Code
Attachments: DRAFT- NAFSA MODEL TRIBAL
LENDING CODE - CLEAN DRAFT 1 17 14 DO
edits.docx
Martin Wong
Chief Integrity Officer
ThinkFinance.com
4150 International Plaza, Suite 400
Ft Worth TX 76109
Privileged and Confidential This e-mail, and any attachments thereto, is intended only for use by the addressee(s) named herein and may contain privileged a and/or
confidential information. if you have received this email in error, please notify me immediately by a return
e-mail and delete this e-mail. You are hereby notified
that any dissemination, distribution or copying of this
e-mail and/or any attachments thereto, is strictly prohibited.

25a
From: David Osterfeld
[mailto:DOsterfeld@rosettelaw.com]
Sent: Friday, January 17, 2014 8:16 PM
To: Catherine Brown; Martin Wong
Cc: Michelle Nguyen; Jo Ann Barefoot
Subject Draft NAFSA Model Code
Good Evening,
I have attached a copy of the draft NAFSA Model
Code. I am still ironing out some spacing/curb appeal
issues, but the content is all there. I welcome your
thoughts and suggestions. Martin has been an invaluable source of assistance on this journey.
Very Respectfully,
David M. Osterfeld
Rosette, LLP
Attorneys at Law
565 W. Chandler Blvd., Suite 212
Chandler, AZ 85225
Mobile: (480) 433-5811
Office: (480) 889-8990
Fax: (480) 889-8997
dosterfeld@rosettelaw.com
www.rosettelaw.com
CONFIDENTIAL

COMMUNICATION: THIS MESSAGE IS A
CONFIDENTIAL ATTORNEY COMMUNICATION ONLY FOR
USE BY THE INTENDED RECIPIENT. ANY INADVERTENT
RECEIPT SHALL NOT CONSTITUTE A WAIVER OF ATTORNEYCLIENT OR WORK PRODUCT PROTECTION. IF RECEIVED IN
ERROR, PLEASE NOTIFY SENDER IMMEDIATELY AND DELETE THIS MESSAGE. THANK YOU FOR YOUR COOPERATION.

————

26a
From: Catherine Brown [mailto:cbrown@treliant.com]
Sent: Thursday, January 16, 2014 1:58 PM
To: Martin Wong
Cc: David Osterfeld; Michelle Nguyen; Jo Ann Barefoot
Subject: RE: Checking in
Yes, that’s my plan.
Catherine M. Brown
Managing Director
Treliant Risk Advisors
2300 N Street NW, Suite 2100
Washington, DC 20037
Direct: 202.249.7940
Mobile: 216.402.7597
Facsimile: 202.223.3071
Email: cbrown@treliant.com
Website: www.treliant.com

————

27a
From: Martin Wong
[mailto:mwong@thinkfinance.com]
Sent: Thursday, January 16, 2014 3:56 PM
To: Catherine Brown
Cc: David Osterfeld; Michelle Nguyen; Jo Ann Barefoot
Subject: Re: Checking in
Catherine - that is fine. Will you have both the NAFSA
and Tunica proposals?
Sent from my iPhone
On Jan 16, 2014, at 2:52 PM, “Catherine Brown”
<cbrown@treliant.com> wrote:
Perfect, thanks so much David. I look forward to the
opportunity to work with you. Martin, I will aim to
have the proposal to you not later than Monday if
that’s agreeable.
Best,
Catherine
Catherine M. Brown
Managing Director
Treliant Risk Advisors
2300 N Street NW, Suite 2100
Washington, DC 20037
Direct: 202.249.7940
Mobile: 216.402.7597
Facsimile: 202.223.3071
Email: cbrown@treliant.com
Website: www.treliant.com
<image001.jpg>
<image002.gif> <image003.gif>
————

28a
From: David Osterfeld
[mailto:DOsterfeld@rosettelaw.com]
Sent: Thursday, January 16, 2014 3:51 PM
To: Catherine Brown; Martin Wong
Cc: Michelle Nguyen; Jo Ann Barefoot
Subject: RE: Checking in
Catherine,
It is my pleasure to meet you. At this moment I am
entering edits to the NAFSA Model Code that Martin
and I had discussed on Tuesday, January 14, 2014. I
was unable to work on the edits yesterday because my
Commanding Officer in the JAG Corps had requested
my assistance in helping prepare the office for an upcoming inspection from AF Headquarters. I project that I
will have the Model Code in good form by close of
business on Friday, January 17, 2014. I will make sure
to send you a copy of the edited Model Code once it is
complete.
Very Respectfully,
David M. Osterfeld
Rosette, LLP
Attorneys at Law
565 W. Chandler Blvd., Suite 212
Chandler, AZ 85225
Mobile: (480) 433-5811
Office: (480) 889-8990
Fax: (480) 889-8997
dosterfeld@rosettelaw.com
www.rosettelaw.com
CONFIDENTIAL COMMUNICATION: THIS MESSAGE IS A
CONFIDENTIAL ATTORNEY COMMUNICATION ONLY FOR
USE BY THE INTENDED RECIPIENT. ANY INADVERTENT
RECEIPT SHALL NOT CONSTITUTE A WAIVER OF ATTORNEY-

29a
CLIENT OR WORK PRODUCT PROTECTION. IF RECEIVED IN
ERROR, PLEASE NOTIFY SENDER IMMEDIATELY AND DELETE THIS MESSAGE. THANK YOU FOR YOUR COOPERATION.

30a
From: Catherine Brown [mailto:cbrown@treliant.com]
Sent: Thursday, January 16, 2014 1:42 PM
To: Martin Wong
Cc: Michelle Nguyen; Jo Ann Barefoot; David Osterfeld
Subject: RE: Checking in
Thanks so much Martin.
David, I look forward to receiving the draft at your
earliest convenience.
Best,
Catherine
Catherine M. Brown
Managing Director
Treliant Risk Advisors
2300 N Street NW, Suite 2100
Washington, DC 20037
Direct: 202.249.7940
Mobile: 216.402.7597
Facsimile: 202.223.3071
Email: cbrown@treliant.com
Website: www.treliant.com
————

31a
From: Martin Wong [mailto:mwong@thinkfinance.com]
Sent: Thursday, January 16, 2014 3:36 PM
To: Catherine Brown
Cc: Michelle Nguyen; Jo Ann Barefoot; David
Osterfeld (DOsterfeld@rosettelaw.com)
Subject: Re: Checking in
Catherine - David Osterfeld of the Rosette firm, a
tribal firm representing several tribal lenders, is
currently making the edits. David, please send the
next version to Catherine who is working on the
accreditation proposal as we discussed at the NAFSA
board meeting. Thanks. Martin
Sent from my iPhone
On Jan 16, 2014, at 2:29 PM, “Catherine Brown”
<cbrown@treliant.com> wrote:
Hi there,
Any progress on the model lending code? I’m working on the proposal we discussed, and reviewing the
draft document would be extremely helpful.
Thanks very much.
Catherine
Catherine M. Brown
Managing Director
Treliant Risk Advisors
2300 N Street NW, Suite 2100
Washington, DC 20037
Direct: 202.249.7940
Mobile: 216.402.7597
Facsimile: 202.223.3071
Email: cbrown@treliant.com
Website: www.treliant.com

32a
<image001.jpg>
<image002.gif> <image003.gif>
This email message (including any attachments) is
for the use of the intended recipient(s) only, It may contain confidential or proprietary information and may be
subject to confidentiality protections. If you are not an
intended recipient, you may not review, copy, or distribute this message. If you received this message in error,
please notify the sender and delete this message
(including any attachments) from your system.
IRS Circular 230 Notice Requirement: Internal
Revenue Service regulations require that certain types
of written advice include a disclaimer. To the extent
the preceding message contains advice relating to a
Federal tax issue, the advice is not intended or written
to be used, and it cannot be used by the recipient or
any other taxpayer for the purpose of avoiding Federal
tax penalties, and was not written to support the
promotion or marketing of any transaction or matter
discussed herein.

33a
APPENDIX D
Message
From:
Sent:
To:

Martin (wongmj@aol.com)
1/19/2014 6:19:41 PM
Martin Wong
[mwong@thinkfinance.com];
David Osterfeld
[DOsterfeld@rosettelaw.com]
Subject:
edits for your review.
Attachments: DRAFT_-_NAFSA_MODEL_TRIBAL_
LENDING_CODE_-_CLEAN_DRAFT_
1_17_14_DO_edits.docx
* * *
(b)

A Licensee shall not:
(1) Engage in any Tribal Consumer Financial Services other than those allowed under this Code.
(2) Assess any interest, fee, or charge that is greater than any applicable limitation, if any, prescribed in this Code.
(3) Use or cause to be published or disseminated
any advertisement that contains false, misleading or deceptive statements or representations.
(4) Engage in unfair, deceptive, abusive or fraudulent practices or unfair or deceptive advertising
in connection with a loan. ALenderperson violates the requirements of this Ccode by engaging in any act that limits or restricts the application of this Ccode.

(c) Unconscionability. When discovered through investigation of a consumer complaint of through examination of a Licensee as permitted herein, the
Authority may render void and unenforceable a

34a
Loan that the Authority deems unconscionable or
to have been induced by unconscionable conduct.
To determine whether the actions of a lender were
unconscionable, consideration shall be given to the
following, among other factors by the Authority:
(1) The financial benefits of the Loan to the
Consumer and the level of risk incurred by the
Llender in extending credit; or
(2) The relation between the amount and terms of
credit granted and the cost of making the Loan.
(3) A lender shall require a consumer to fill out a
loan application, or a modified version thereof if
a lender-consumer relationship has been consummated by the parties previously, and shall
maintain this application on file.
(A) A lender shall require the consumer to provide a pay stub or other evidence of income
at least once each twelve-month period.
Such evidence shall not be over forty-five
days old when presented. If a lender requires
a consumer to present a bank statement to
secure a loan, the lender shall allow the consumer to delete from the statement the information regarding to whom the debits listed
on the statement were payable.
(B) If the amount borrowed is not more than
twenty five percent of the consumer’s
monthly gross income and benefits, as evidenced by a paycheck stub or otherwise
substantiated, a lender shall not be obligated
to investigate the consumer’s continued debt
position, and the consumer’s ability to repay
the loan need not be further demonstrated.
(Need disvussion)

35a
(4) If a lender complies with the requirements of
subsections (2) and (3), and if the loan otherwise
complies with this code and other applicable
law, neither the consumer’s inability to pay nor
the lender’s decision to obtain or not obtain
* * *

